January 2, 2002
Audit Report No. 02-001


Follow-up Audit of Internal Controls
Over the Customer Information and
Control System for the FDIC Financial
Systems
Federal Deposit Insurance Corporation                                                                      Office of Audits
Washington, D.C. 20434                                                                         Office of Inspector General




   DATE:            January 2, 2002

   TO:              Carol M. Heindel, Acting Director,
                    Division of Information Resources Management


   FROM:            Russell A. Rau [Electronically produced version; original signed by Russell A.
                    Rau]
                    Assistant Inspector General for Audits

   SUBJECT:         Final Report Entitled Follow-up Audit of Internal Controls over the Customer
                    Information and Control System for FDIC Financial Systems
                    (Audit Report No. 02-001)

   This report presents the results of our follow-up audit of internal controls over the Customer
   Information and Control System (CICS). Our objectives were to evaluate the adequacy of the
   installation parameters 1 used by the CICS system software for the financial systems and the
   adequacy of access security over CICS files, resources, 2 and software monitoring products. 3 Our
   audit scope and methodology are discussed in Appendix I.

   Previously, we conducted an audit that included all of the CICS system controls, including the
   installation parameters used by the CICS system software for the financial systems and the
   adequacy of access security over CICS files, resources, and software monitoring products. On
   June 19, 1997, we issued a report entitled CICS for the IBM and Amdahl Mainframe Computers.
   The report included recommendations for further protecting the integrity and performance of
   application programs under CICS, improving access controls, and reducing the risk of CICS
   authorizations for a given application system interfering with or bypassing the security
   mechanisms for other application systems under CICS control. Appendix II contains a summary
   of the recommendations and management comments in that report.


   INTRODUCTION

   CICS is a transaction management program for mission-critical applications, such as the Bank
   Information Tracking System, Call Processing System, and the FDIC’s financial systems. The
   1
     Data (in files) or code that can be used to designate how systems are initiated. Parameters include limits on
   operator intervention, periodic file back-ups, and security options.
   2
     Resources are transactions, applications, terminal devices, and communications.
   3
     Software monitoring products are vendor supplied programs that allow systems engineers to detect and correct
   inefficiencies or errors in computer operations.
FDIC’s financial systems include the Financial Information Management System general ledger,
the Accounts Payable Purchase Order System, and the Electronic Procurement Routing Invoice
Solution. The financial systems record and report all the financial activity of the Corporation.

CICS provides the interface between these application programs and the computer’s operating
system. Specifically, it provides the mainframe operating system with the ability to handle
transactions from user terminals such as a personal computer. For example, a transaction sent
from a personal computer could be a user processing an accounting entry. CICS interprets the
user command to process the accounting entry, calls the appropriate application program, and
passes the user information to that program. Once the program is finished, CICS passes any
response from the application program back to the user’s personal computer. In almost all
application program environments, CICS involvement in the communications and tracking
process is transparent to the end user.

In order to conduct these functions, CICS utilizes a System Definition File. The System
Definition File within CICS identifies and defines what transactions or programs are available to
users of the mission-critical applications. Also, the CICS software system includes very
powerful capabilities (e.g., commands that can shut down the application systems) that must be
appropriately controlled to protect corporate applications and data. Consequently, to ensure the
integrity of application programs and data, CICS must be integrated with the security software
used on the mainframe computer.

RESULTS OF AUDIT

Controls were not in place to protect access to the CICS System Definition File within the CICS
system. As a result, over 100 non-CICS programmers had full access to the System Definition
File and had the capability to shut down or disrupt the systems that are critical to the FDIC’s
mission. This condition was brought immediately to the attention of DIRM management who
took appropriate action to correct the problem.

Our evaluation of the installation parameters for the CICS system showed that the parameters
used in activating the financial systems were consistent with guidelines and recommendations
provided by the product’s vendor. 4 We also concluded that other access security controls were
adequate for CICS system files, resources, and software monitoring products used by the FDIC
financial systems.

ACCESS TO CICS SYSTEM DEFINITION FILE

Over 100 non-CICS programmers had full access to the CICS System Definition File. They had
read, write, and execute capabilities when only the duties of CICS system programmers require this
level of access. Access rules 5 that were in place to limit the number of programmers with access to
the CICS System Definition File and its maintenance program were negated when the FDIC installed
new broad access rules within the security program to permit programmers to access less sensitive

4
 The vendor for CICS is International Business Machines, Incorporated.
5
 Access rules are instructions coded into a security system to designate which users are allowed access to systems
and information.

                                                         2
systems and information. Upon accessing the System Definition File, programmers had the
capability to shut down or disrupt the systems that are critical to the FDIC’s mission. Consequently,
excessive access and authority to modify software increases the risk that unapproved changes can be
made that could compromise data integrity, accuracy, and availability.

Background

Office of Management and Budget Circular A-130, Appendix III, section B.(a) 2. (c) states

       In every general support system, a number of technical, operational, and management
       controls are used to prevent and detect harm. Such controls include individual
       accountability, “least privilege,” and separation of duties. Least privilege is the practice
       of restricting a user’s access (to data files, to processing capability, or to peripherals) or
       type of access (read, write, execute, delete) to the minimum necessary to perform his or
       her job.

Also, FDIC Circular 1360.15 requires the protection of sensitive automated information systems
and data from unauthorized access, disclosure, and use. Sensitive information systems include
those systems that process financial information and data protected from disclosure by any
applicable law, regulation, or order.

Adequacy of Access Controls

Over 100 non-CICS programmers had the capability to read, write, and execute commands to the
CICS System Definition File. However, only the duties of CICS system programmers require
this level of access. CICS programmers require read, write, and execute access in order to
perform routine system maintenance. The non-CICS programmers with access to the System
Definition File had responsibilities that were not related to CICS or the System Definition File.

Access rules that were in place to limit the number of programmers with access to the CICS System
Definition File and its maintenance program were negated when the FDIC installed new broad
access rules within the security program to permit programmers to access less sensitive systems and
information. The new broad access rules superceded all other rules, including the specific access
rules to limit access to the CICS System Definition File. A broad access rule will supercede all other
rules unless a rule is installed that explicitly denies access to specific systems and information.
Consequently, the broad access rules designated multiple non-CICS programmers with the capability
to access the sensitive CICS System Definition File.

These non-CICS programmers had the capability to shut down or disrupt the critical FDIC systems.
For instance, each of the programmers had the ability to access a maintenance program and modify
user group definitions within the System Definition File. This would permit the programmers to add
themselves or others to a user group that is authorized to execute powerful CICS system commands
such as the CICS master terminal transaction (CEMT) used to shut down the CICS system at any
time. Upon executing the CEMT command and shutting down CICS, other users would not be able
to enter commands or transactions to the financial systems, Bank Information Tracking System, or
any of the other critical systems. As a result, the risk of this occurrence or other disruptions


                                                  3
increases as the number of users with full access to the System Definition File increases.

This condition also existed during our previous audit, and it was included in our report, CICS for
the IBM and Amdahl Mainframe Computers, dated June 19, 1997. To resolve that finding,
DIRM implemented Access Rules to limit the access to four CICS programmers. However, the
access rules implemented were overridden by additional changes made since that time.


Recommendations

We recommend that the Acting Director, DIRM:

(1) strictly limit access to the CICS System Definition File and its maintenance program to CICS
    programmers with responsibilities that warrant that access and
(2) implement access rules to ensure that future changes to the security database do not
    inadvertently negate the access rules intended for the CICS System Definition File and its
    maintenance program.

CORPORATION COMMENTS AND OIG EVALUATION

We notified FDIC officials of our finding during the fieldwork phase of our audit. They
responded by installing security restrictions that allow only four CICS Systems Programmers to
have full read, write, allocate, and execute access. Further, three other system programmers for
the mainframe operating system will have only read and execute access to the CICS System
Definition File. FDIC officials replied that additional precautions have been implemented to
ensure that these specific security changes cannot be overridden6 and that the new changes have
been documented to indicate the need for restricted access. Later, on December 20, 2001, we
provided our draft report to the Acting Director of DIRM and her office responded that they had
no further comments.

FDIC actions during the audit were responsive to our recommendations. In addition, we
determined through our review of the applicable mainframe files that corrective actions had been
completed and were effective. The two recommendations in our report are closed for reporting
purposes.




6
 DIRM installed “prevent rules” for the CICS System Definition and utility files. Prevent rules instruct the security
system to ignore any other broad access rules that do not specifically address these files.

                                                         4
                                                                                   APPENDIX I
Scope and Methodology

The audit scope focused on the CICS controls that control transactions for the financial
application systems, and we reviewed the security of other systems that share files or
communicate with the financial systems to ensure that such arrangements did not bypass controls
over the financial systems. We reviewed the installation commands (job control language) and
CICS installation parameters. We determined the identity of installation files for the CICS and
the financial systems and evaluated the contents of all files by directly accessing the mainframe
computer. Installation commands and parameters were evaluated using the recommended
procedures contained in the vendor’s publications.

We also reviewed access security over files and resources, intersystem communications, and the
interfaces between CICS and products used to secure and monitor CICS resources. We
conducted tests of CICS and vendor transaction commands such as those used in modifying user
capabilities. Selected commands were tested on the financial systems to verify that proper
access security controls were functioning, and we used vendor-supplied utilities to ascertain the
types of access available to critical files and resources. We obtained a copy of the CICS System
Definition File and evaluated the resources available to users of the financial systems and the
extent of communication allowed with other corporate systems.

We conducted our audit from June 4, 2001 to August 15, 2001 in accordance with generally
accepted government auditing standards.




                                                5
                                                                                   APPENDIX II

Prior Audit Report entitled CICS for the IBM and Amdahl Mainframe
Computers, dated June 19, 1997

Summary of Recommendations and Management Comments

Our audit report presented 14 recommendations for further protecting the integrity and
performance of application programs under CICS, improving access controls, and reducing the
risk of CICS authorizations for a given application system interfering with or bypassing the
security mechanisms for other application systems under CICS control.

Ø Protection of the integrity and performance of the application programs under CICS

   The report recommended changes to the sequence of installing the security programs and CICS
   parameters during the system start-up. We also recommended the elimination of unnecessary
   files that were included in the system start-up, implementation of the security controls used to
   protect powerful system programs, and the standardization and centralization of CICS resources.

Ø Adequate access controls

   Recommendations addressed improvements in controlling access to the CICS System Definition
   Files and to the maintenance programs that service these files, restricting the number of users
   with access to powerful CICS system and third-party vendor transactions/utility program
   libraries, and preventing users from using unsecured sign-on screens.

Ø Reduce the risk of CICS authorizations for a given application system interfering with or
  bypassing the security mechanisms for other application systems under CICS control

   Recommendations included eliminating the use non-production files in a production
   application and removing the communication links from one CICS production system to a
   non-production system.

Management concurred with all 14 recommendations and implemented corrective actions to
address the cited deficiencies.




                                                6
